Supreme Court. U.S.
FILED

JUL 1 3 2020

~Ve
in the Supreme Court ofthe United States

OFFICE OF THE CLERK

No. 20-

GHASSAN HAGE, PETITIONER
V.

FIDA MHANNA, ET AL., RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

David Yomtov

Ghassan Hage

Counsel of Respondent

2680 Fayette Drive, #202

255 North Market Street, suite 110

Mountain View, CA, 94040

San Jose, CA, 95110

Tel: (650) 580-6274

Tel: (408) 993-0808

E-Mail: ghassan hage@hotmail.com

RECEIVED
JUL 2 0 2020

I.

Question Presented

(l) Where Judge of the Superior Court violated a Court Order issued by a previous
Judge (Appendix “D” p. 23a), (2) where Lawyer from State Bar of California violated
a Court Order issued in his presence by a previous Judge (Appendix “D”), (3) where
Judge of the Superior Court violated his own department long cause and trial
policies(Appendix “E” p. 25a), (4) where Lawyer from State Bar of California violated
Superior Court long cause and trial policies handed to him in the Superior Court
Department by the same Judge who violated his own department trial policies
(Appendix “E”), and (5) where the right of a fair trial under the constitution for the
Petitioner to be prepared to defend himself was violated by given him 33 Exhibits on
the morning of the trial instead at least 5 days before the trial as per Superior Court
trial policies ( Appendix “E”) and at least 10 days before the trial as per a previous
Judge order (Appendix “D”), under what circumstances do a Judge and a lawyer can
be above the Law in the Superior Court of California while the Appeal Court of
California turned its blind eye on this double violation of the Law by he Judge and
the lawyer in a conspiracy way . The CA Supreme Court turned its blind eye too on
this violation of the LAW by the Judge and the Lawyer.

(i)

II.

List of parties

[X] All parties appear in the caption of the case on the cover page.
[X 3 All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows:
1- Superior Court of California
Hon. Christopher Rudy
191 N. First street
San Jose, CA, 95113
2- Supreme Court of California
350 McAllister St,
San Francisco, CA 94102
3- Sixth District Court of Appeal
333 W Santa Clara St #1060,
San Jose, CA 95113

(ii)

III. Related Cases
Case 16-18905 • in State Bar of California against misconduct and violation of
the LAW of Lawyer David Yomtov
Case 17-15930 : in State Bar of California against misconduct and violation of
the LAW of Lawyer David Yomtov
Case 17-04475 : in State Bar of California against misconduct and violation of
the LAW of Lawyer David Yomtov
Case 17-0-05941 • in State Bar of California against misconduct and violation
of the LAW of Lawyer David Yomtov
Case 18-12770 an State Bar of California against misconduct and violation of
the LAW of Lawyer David Yomtov
S249928 : Verified Accusations against lawyer David Yomtov in CA Supreme
Court
S242681 : Verified Accusations against lawyer David Yomtov in CA Supreme
Court
H045364 : CA Appeal Court Case for a Writ of mandate against Judge
Christopher Rudy after he allowed Fraud upon a Court committed
by the lawyer Judge Christopher Rudy.
S249160 : Petition for Review for the Writ of mandate ( Case H045364)
dismissed abruptly by the Sixth appellate Court before receiving the
Court Reporter document showing the evidence of the Fraud upon
the court.

(iii)

IV. Table of Contents
i.

Question Presented

1

II.

List of parties

11

III.

Related Cases

m

IV.

Table of Contents

IV

V.

Index of Appendices

v

VI.

Table of Authorities

vi

VII.

Petition for Writ Of Certiorari

1

VIII. Opinions Below

1

IX.

Jurisdiction

1

X.

Statement of the Case

2

XI.

a. PREVIOUS JUDGE ORDER, TRIAL POLICIES AND DENYING
CONTINUING OF THE TRIAL..........
2
b. DIRECT APPEAL.................................
2
REASONS FOR GRANTING THE WRIT
3
a. TO AVOID ERRONEOUS DEPRIVATIONS OF THE RIGHT OF
PETITIONER, THIS COURT SHOULD CLARIFY THE
STANDARD OF REJECTING A JUDGE’S ORDER WHO
ENFORCES PROVIDING EXHIBITS BEFORE TRIAL ,
REJECTING A TRIAL COURT POLICIES WHICH ENFORCES
EXHIBITS BEFORE TRIAL AND REJECTING APPELANT
REQUEST TO CONTINUE A TRIAL

XII.

CONCLUSION

14

(iv)

V.

Index of Appendices

Appendix A- Opinion of CA Court of Appeal (February 11th, 2020)....la
Appendix B: Decision of CA Trial Court (August 1st, 2017)

16a

Appendix C: Decision of CA Supreme Court (April 29th , 2020)

22a

Appendix D: CA Superior Court Order (July 12th, 2016)

23a

Appendix E: CA Superior Court Trial policies

25a

Appendix F: Transcript pages of the hearing (May 15th , 2017)

28a

Appendix G: Transcript pages of the trial (June 22nd , 2017)

30a

Appendix FF Direct appeal (August, 25th 2017)

36a

Appendix F Transcript pages of the trial (June 6th , 2016)

37a

Appendix J: Picture of two binders containing 34 Exhibits given to
petitioner few minutes prior to the trial

(v)

44a

VI. Table of Authorities

Statutes
Cal Rules of the Court 5.394.

25a

Superior Court Trial policies.

25a

Superior Court Order
Superior Court Order issued on July 12 July 2016

23a

Constitutional Provisions
United States Constitution, Amendment VI.

(vi)

2

(1)

VII. Petition for Writ of Certiorari
Ghassan Hage, a US citizen and Pro Per, respectfully this court for a writ of
certiorari to review the judgment of the California Court of Appeals.

VIII.Opinions Below
The opinion by the California Court of Appeals attached as Appendix “A” (p.
la) denying Mr. Hage’s direct appeal from CA trial court decision attached as
Appendix “B” (p. 16a). The California Supreme Court denied Mr. Hage’s
petition for review of the opinion of California Court of Appeal on April 29, 2020
without stating its opinion. That order is attached as Appendix “C” (p. 22a).

IX. Jurisdiction
The petitioner’s petition for review to the Supreme Court was denied on
April 29, 2020. The Petitioner invokes this Court’s jurisdiction under 28 U.S.C §
1257, having timely filed this petition for a writ of certiorari within ninety days
of the California Supreme Court’s decision.

(2)

X.

Statement of the Case.

a. PREVIOUS JUDGE ORDER, TRIAL POLICIES AND
DENYING CONTINUING OF THE TRIAL
Petitioner has never waived his right for a fair trial which is
constitutional right, a fair trial when he conies prepared to trial Court to defend
himself against the other party’s allegations. 34 Exhibits for the trial in two 5
inches binders (Appendix “J“ ) were provided to him few minutes before the trial
began in contrary of 10 days prior to the trial as per a Court Order listed in
Appendix “D” (p. 23a) and at least 5 days prior to the trial as per California trial
Court policies listed in Appendix “E” (p. 25a), in fact as described in the
Reporter’s transcript of the trial, petitioner told the Judge that the Exhibits of
the Trial should have been submitted to him prior to the trial and not few
minutes before the trial began as listed in Appendix “G” (p. 34a lines 14-21) . In
addition petitioner has requested from the Judge of the Superior Court several
time during the trial to continue the trial to a later date but the Judge refused ,
Appendix “G” (p. 32a lines 24-28, p33a, lines 1-4)

b. DIRECT APPEAL
Petitioner found himself forced to stay in the trial by the Judge Christopher
Rudy on June 22nd , 2017 no matter how he objected on Exhibits not provided
before the trial and the importance that the trial to continue in order for the
petitioner to prepare to defend himself, and when the Judge issued the order of

(3)

Vexatious litigant, petitioner filed on August 25, 2017 a direct appeal (
Appendix “H” p. 36a) stating the violation committed by the Judge Christopher
Rudy and the Lawyer David Yomtov as :
“CCP 657. The presiding Judge has violated a court order Pled on 07/12/16 by a
prior Judge(on retirement) who said “Submit all Exhibits to the court and to
Respondent(Rsp) no later than ten days prior to the hearing. 34 Exhibits were
submitted by petitioner’s attorney to Rsp and to court on the morning of the trial
in the Courtroom. Rsp objected to the Judge and requested 3 times to continue
the trial but the Judge refused. Violation ofRsp’s right. Violation ofJudicial
Code ofEthics.
Irregularity in the proceedings of the court, abuse ofdiscretion by which
Respondent was prevented from having a pretrial rights, rights during the trial
and post-trial rights. Judge Knowing the notice of unavailability ofRespondent
between 7/15/17 and 8/15/17 has delayed filing the order until when
Respondent was unavailable to prevent him filing motion ofreconsideration.”

XI.

REASONS FOR GRANTING THE WRIT

a. TO AVOID ERRONEOUS DEPRIVATIONS OF THE RIGHT OF
PETITIONER, THIS COURT SHOULD CLARIFY THE
STANDARD OF REJECTING A JUDGE’S ORDER WHO
ENFORCES PROVIDING EXHIBITS BEFORE TRIAL ,
REJECTING A TRIAL COURT POLICIES WHICH ENFORCES
EXHIBITS BEFORE TRIAL AND REJECTING APPELANT
REQUEST TO CONTINUE A TRIAL

One of several main issues that the Appeal Court did not take in
consideration the history behind the wrongful decision declaring the petitioner a
Vexatious litigant and the history. On June 6, 2016 the Opposing party’s lawyer
David Yomtov brought a motion for a hearing to declare petitioner a Vexatious

(4)

litigant. The motion included a two page spreadsheet prepared by lawyer David
Yomtov (Appendix “I” p. 38a lines 13-15 , p39a lines 7-28, p40a lines 1-10)
“THE COURT' All right The document, which appears to be a two page document,
is going to be marked for identification as Petitioner’s Exhibit 1.
MR. YOMTOV: And this is a demonstrative exhibit. I ask the Court to take - to
review that for Court’s convenience as we go through THE COURT: Well, hang on on a sec. Counsel until this is admitted it’s not
something I’m going to be able to look at.
MR. YOMTOV: WellTHE COURT' And you could lay the foundation and you can do it that way.
MR. YOMTOV: The foundadtion is that this is spreadsheet that is — it indicates the
various motions —
THE COURT: Who prepared it ?
MR. YOMTOV: - that Mr. Hage has Bled THE COURT: No. Who prepared this ?
MR. YOMTOV: Iprepared this motion —
THE COURT: Okay
MR. YOMTOV: - after revieweing this voluminous files
THE COURT: Okay, hang on a sec. Mr Hage are you objecting to this exhibit?
THE RESPONDENT: I didn’t read it. I mean he just drop it in front ofme. I haben’t

(5)

had a chance to read what is in it.
THE COURT: Okay. So, What we’re going to do here is I’m going to have the
document admitted subject to a motion to strike or other appropriate motion. ”

In addition the Judge Mary Ann Grilli instructed the lawyer Yomtov on June
6,2016 to provide the Exhibits that he is intending to use 10 days before any
future trial on vexatious litigant (Appendix “I” p. 41a - 42a)
THE COURT: Okay,here’s what we’re going to do, with all due respect to everybody,
I think this motion needs to be refiled. So, I’ll vacate the trial on this motion without
prejudice to your refiling. In the event you elect to reSle it will be a long cause
matter, please indicate that on the pleadings.
And relunctantly I say this, I want copies ofany documents that you
intend to rely upon in that motion attached or provided to the Court as
exhibits and to Mr. Hage as exhibits at least ten days in advance, ten court
days in advance, of the continued hearing
MR. YOMTOV: And the exhibits to be provided to the courtroom, Your Honor?
THE COURT : Yes, you can provide them either by Sling them as attachments to
the motion —
MR. YOMTOV' I would not do that.
THE COURT: - or as exhibits
MR. YOMTOV: It would be far too much to give to the file clerk

(6)

THE COURT' So, then we’ll do it as exhibits, but at least ten calendar days before or
court days, I’m sorry.
MR. YOMTO V- And I want to indicate, Your HonorTHE COURT: You’ll need to resubmit the proposed exhibits.
MR. YOMTOV:* I will do that. ”
As you see above that the Judge Mary Ann Grilli insisted twice on the
Lawyer David Yomtov to provide the Exhibits to Mr. Hage ( Petitioner) 10
days prior to the trial. However Mr. Yomtov lied to the Judge Grilli and he
did not provide the Exhibits to the Petitioner 10 days prior to the Trial on
June 22, 2017 with the new Judge Christopher Rudy after the Judge Mary
Ann Grilli left for retirement, instead the lawyer David Yomtov violated the
Judge Grilli Order filed on 07/12/16 that states the below( Appendix “D”
p.24a):
“ The court vacated Petitioner’s motion to have Respondent found to be a vexatious
litigant offcalendar, with leave to re-file said motion. In the event that petitioner re­
files this motion, she shall:
a. Indicate that said motion is to be a long cause matter and calendar it as such,
and
b. Submit all exhibits to the court and to Respondent no later than ten days prior to
the hearing.
and then the lawyer Yomtov has provided two 5 inches binders of 34
Exhibits to petitioner in the Courtroom on June 22, 2017 immediately before

(7)

the trial with the new Judge Christopher rudy as Attached in Appendix “J”
p.44a.
Reason V A Court Order issued on 07/12/16 (Appendix “D” p, 23a) by Judge
Mary Ann Grilli ordering the opposing party and her lawyer Yomtov to
provide the Exhibits of the trial to the petitioner 10 days prior to the trial
which was clearly violated by the lawyer David Yomtov and Judge Rudy.
Reason 2: CA Superior Court Trial policies (Appendix “E” p. 25a) of the
Department 76 trial presided by Judge Christopher Rudy that states the
below was violated by the lawyer Yomtov and the Judge Christopher Rudy
himself
_ /Each part/slst of exh!bto?except rebuttal exhibits.SibitJists.apd^
|coples"of'af! exiTibltTfb^^^^attrlirshai!T>e'extl^hmgidrnoiatertltal^lh^leadfal
jjor serving the Trial Brief; „/~
'x—: ~~
ii.

(bjSeryfee.ofbrl&f^-J
pT^artiesmustserve^he^dai'or'hearing'briefon’ail-partieS’afid^iCtiirbilWWififtRe*)
tcourt a minimum of 5 court days before the tfial or long-causf-'hearingf
'
~

Reason 3‘ Petitioner has requested on June 22, 2017 from the Judge Rudy
to continue the trial because the Exhibits were not provided to him 10 days
prior to the trial Appendix “G” (p. 32a lines 24*28, p33a, lines 1*4)

Reason 4- CA superior court Court failed to keep its agreement with the

(8)

petitioner of having the Vexatious litigant long trial to be more than one day
to cover 4 years 2014-2017 (Appendix “F” p.29a lines 13-17).
“MR. HAGE: I don’t think so, Your Honor, because the vexatious litigant needs at
least one day and a half, and you have said at that time that you will continue it, “

Reason 5- CA superior Court failed to keep its agreement with the
petitioner of continuing the trial for more than one day instead the Judge
shows disrespect to the petitioner and has proceeded with the trial regardless
of petitioner’s objection (Appendix “G” p.31a lines 17-28)
It took 12,

14 months for the Judge Grilli to

validate what I'm saying.

I filed motions,

so when we

start the trial if you want to wish to proceed on this
trial,

you're going to see evidence that prove every word

that I'm saying is correct.
is why I ask you, Your Honor,
to be three days.

it's a long cause,

This

it's goin

But Your Honor, you said we'll do one

day and then we'll continue,
THE COURT:
Mr. Yomtov,

This is not only this.

and I accept all this.

All right,

thank you.

are you ready to proceed?

MR. YOMTOV:
THE COURT:

I am, Your Honor.
Okay.

Reason 6- CA Superior Court failed to continue the trial as per 2nd request of
the petitioner and rejected his request (Appendix “G” p. 32a lines 24-28)

So

(9}
MR. HAGE:

I want to also ask the Court to keep

in mind that this will need to be (continued because there
are items to
THE COURT:
continued.

This case is not going to be

We're hearing this case today.

You have until

Reason T- CA Superior Court through Judge Christopher Rudy failed to

continue the trial and failed to acknowledge that the Exhibits should have been

submitted to petitioner and to the Court at least 5 days as per the superior court
trial policies but instead Judge Rudy defended the lawyer David Yomtov which

is seen as a total bias instead of support the Law and the Court order of Judge

Grilli. (Appendix “G” p.34a lines 14-28)

(10)
Your Honor,
me two binders .

to answer your question, Mr. Yomtov gave

He gave me two binders now.

asking me to go into one by one for him,
after finishing my stuff,

If you're

I will do it later

But you have a Court rule that I

got — he has to provide me five days before the trial of
the exhibits that he wants to provide.
He gave it to me right now.
it, to do it right away.
THE COURT:

Did he do it?

No.

And you're asking me now to do

And this

Okay.

So,

so, Mr. Hage, the time

for you to tell the Court that you had an objection to any
of Mr . Yomtov's exhibits was at 9:00 o'clock this morning
when the Court sat down with these binders and we started
this case.

You didn't say a word about that.

Reason 8- CA Superior Court through Judge Christopher Rudy failed to assert
the importance of the lawyer Yomtov to follow the rule of the trial policies (
Appendix “E” p.25a) and Judge Mary Ann Grilli order by providing the
exhibits to Petitioner prior to the trial, but instead Judge Rudy supported the
lawyer yomtov in what he has done which is a complete bias and the petitioner
was forced to prepare to defend himself during lunch time (Appendix “G” p.
35a lines 1‘6)

(11)

THE COURT:

I'm just saying if you had an

objection to Mr. Yomtov's exhibits

and by the way,

all

of his exhibits are just the Court file.
MR. HAGE:

But I have to go and search for all

my list, and I did it through the -- during the [lunch time.

I was quickly

Reason 9- The lawyer David Yomtov failed to respect Judge Mary Ann Grilli
decision and petitioner’s decision to accept to continue a trial based on the two
pages document provided by the lawyer Yomtov on 6/6/2016 (Appendix “I” p. 38a

lines 13-15)
INDEX OF EXHIBITS

PETITIONER’S
EXHIBITS:
No.

1

two page document

IDENTIFIED
10

EVIDENCE
11

The decision of the Judge Grilli and the petitioner to use the two pages
documents as a vehicle for a trial was totally refused as shown in (Appendix “I” ,
p.41a lines 9-18)

(12)
9
.10

And I'm saying this is wrong.
one.

11
12

Your Honor.

There's

go in the number
is

so,

We stated for the

some information I

number

6 or 21

continuing is not my

13

THE COURT:

14

THE RESPONDENT:

15

THE COURT:

first

know and then

that Mr.

Yomtov

X don't accept it.

Don't accept what?

Okay,

Continuing this.
here's what we're going to do,

16

with all due respect to everybody,.

17

needs to foe refiled.

18

motion without prejudice to your refiling.

•So,

I think this motion

I'll vacate the trial on this
In the event

The lawyer David Yomtov has resubmitted the same two pages documents to
the new Judge Christopher Rudy for June 22nd trial.

Reason IQ: the lawyer David Yomtov misled on purpose the Superior Court by
providing a two page documents in his motion filed in superior court on 1/19/17
in which the lawyer Yomtov included it in his motion to Augment (filed in
Appeal Court on 03/4/19) showing that only 24 Exhibits will be in question when
the lawyer added 10 more Exhibits to them on the morning of the trial on
06/22/17 inside the two binders reaching 34 Exhibits provided to the petitioner
and to the Judge Rudy.( as seen in the picture of the binders of the Appendix “J”
p.44a inside the petitioner brief letter filed in the Sixth appellate Court on
01/02/2018)

Reason 11- The Judge Christopher Rudy failed to take the time to understand
petitioner’s Case prior to the trial by agreeing with Judge’s Grilli’s order who
was on petitioner case for four years and wanted the Exhibits to be provided to
her and to the petitioner’s 10 days before the trial while the Judge Christopher

(13)

Rudy did not want the Exhibits 10 days prior to the trial even though he was
new on petitioner’s case for only one month .

Reason 12- The Judge Christopher Rudy failed to respect the petitioner’s civil
rights and to have enough time to defend himself and to be prepared by refusing
to continue the trial because the Exhibits were not provided to him 10 days prior
to the trial.

Reason 13- The Judge Christopher Rudy took a revenge from the petitioner’s
who filed a Peremptory Challenge against him after the Judge Christopher Rudy
allowed a Fraud upon the Court to happen in his Courtroom from the lawyer
David Yomtov and has protected him ( Refer to the Related Case mentioned
above in Appeal Court H045364 and in Supreme Court S249160) and the
peremptory challenge was denied by the Judge Rudy on 06/19/17 three days
prior to the trial on Vexatious litigant case which was calendared on 06/22/17

Reason 14- The Judge Christopher Rudy lacks impartiality and failed to
perform a fair trial by protecting petitioner’s civil rights to been able to prepare
to defend himself and have all the Exhibits provided to him 10 days prior to the
trial. Keeping in mind that the lawyer David Yomtov has exploded the number
of Exhibits from 24 to 34 Exhibits on the morning of the trial without providing
the list of the additional 10 Exhibits to the petitioner and to the court prior to
the trial.

(14)

XII.

CONCLUSION

This is not the first time that the CA court of Appeal denied Petitioner’s
appeal against the decision of Judge Christopher Rudy, a prior appeal case
mentioned in the related cases (H045364) targeting a a Peremptory challenge
against the Judge who allowed Fraud upon the Court to be committed by the
lawyer David Yomtov was dismissed by the CA court of Appeal even before
receiving the Reporter transcripts showing the evidence of the Fraud upon the
Court, Petitioner filed a petition for Review if CA supreme Court ( S249160)
which was also denied. Petitioner has missed the deadline to file a Writ of
Certiorari in the US Supreme Court.
For the foregoing reasons, Mr. Hage has not and will accept violation of the
LAW by any judicial officer and cannot be part of this misconduct committed by
the Judge and the law who are domestic enemies to the United states of
America. Mr. Hage respectfully requests that this court issue a writ of certiorari
to review the judgment of the California Court of Appeals.
Dated this 13th of July, 2020.

Respectfully Submitted
7 .

Ghassan'flage
2680 Fayette Drive , #202
Mountain View, CA, 94040
Tel: 1-650-5806274

